Highlights
Table of Contents




                    Voyager Card
                    Program for
                    Highway Contract
                    Routes — Pooling
Findings




                    Policy Concerns
                    and Related
                    Overpayments
Recommendations




                    Management
                    Advisory Report
                    Report Number
                    NO-MA-14-006
Appendices




                    September 29, 2014




                                         Print
Highlights
Table of Contents




                    Highlights                                           Background                                                         suppliers with multiple HCRs to pool their authorized fuel
                                                                                                                                            gallons (called aggregate pooling) without regard for supplier
                                                                         Since 2005, the U.S. Postal Service has been providing
                                                                                                                                            operational needs (such as the use of the same equipment on
                                                                         Highway Contract Route (HCR) suppliers with Voyager fleet
                                                                                                                                            multiple routes) or cost benefits for the Postal Service.
                         The Postal Service has not                      transaction cards from U.S. Bank Voyager Fleet Systems, Inc.
                                                                         to purchase fuel (known as the HCR Voyager Card Program).          This widespread pooling occurred because the policy was
                    effectively managed fuel pooling
Findings




                                                                         In fuel year July 1, 2012–June 30, 2013, the Postal Service paid   relaxed over time and is now inadequate. Also, aggregate
                        for HCR suppliers under the                      over $665 million for close to 170 million gallons of fuel under   pooling became common practice because agreements
                                                                         the program.                                                       that would not have allowed it were either missing or lacked
                        HCR Voyager Card Program.                                                                                           consistency.
                                                                         The Postal Service’s Fuel Management Program document
                    Consequently, the Postal Service provides policy to suppliers and the Postal Service on the HCR
                                                                                                                                            Consequently, the Postal Service may be paying more in fuel
                                                                         Voyager Card Program. It also includes guidance on pooling         costs than necessary. We estimate the risk of unrecoverable
                        incurred about $42.5 million
                                                                         authorized fuel. It allows HCR suppliers to combine or “pool”
Recommendations




                                                                                                                                            fuel overpayments at $42.5 million annually. Without corrective
                         annually in more fuel costs                     authorized gallons for contracts in rare cases where there is an   actions, financial assets of about $42.5 million are also at risk
                                                                         operational need to do so. Otherwise, suppliers are required to    for the July 1, 2014–June 30, 2015, fuel year.
                                   than necessary.                       reimburse the Postal Service for all fuel used in excess of the
                                                                         contracted gallons by individual contract route.
                                                                                                                                            What The OIG Recommended
                                                                         Our objective was to assess the Postal Service’s fuel              We recommended management ensure that pooling
                                                                         pooling practices.                                                 agreements clearly demonstrate an operational need and
                                                                                                                                            that pooling is consistently applied. We also recommended
                                                                         What The OIG Found                                                 that management eliminate the practice of aggregate pooling.
                                                                                                                                            Finally, management should ensure timely identification and
                                                                         The Postal Service has not effectively implemented and
                                                                                                                                            recovery of overpayments for the July 1, 2014– June 30, 2015,
Appendices




                                                                         managed fuel pooling for HCR suppliers under the HCR
                                                                                                                                            fuel year and any subsequent periods.
                                                                         Voyager Card Program. It intentionally allowed all HCR




                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                                    Print                                       1
Highlights
                    Transmittal Letter


                                                                         September 29, 2014
Table of Contents




                                                                         MEMORANDUM FOR:	 SUSAN M. BROWNELL
                                                                         				VICE PRESIDENT, SUPPLY MANAGEMENT

                                                                                                        E-Signed by Robert Batta
                                                                         				                         VERIFY authenticity with e-Sign




                                                                         FROM: 			 Robert J. Batta
                                                                         				Deputy Assistant Inspector General
                                                                         				       for Mission Operations

                                                                         SUBJECT: 			 Management Advisory Report – Voyager Card Program for
Findings




                                                                         				         Highway Contract Routes – Pooling Policy Concerns and
                                                                         				Related Overpayments
                                                                         				(Report Number NO-MA-14-006)

                                                                         This management advisory report presents the results of our review of the
                                                                         Postal Service’s Voyager Card Program for Highway Contract Routes – Pooling Policy
                                                                         Concerns and Related Overpayments (Project Number 14XG024NO001). Pooling policy
                                                                         concerns came to our attention during our ongoing review, Voyager Card Program –
Recommendations




                                                                         Capping Report (Project Number 14XG024NO000).

                                                                         We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                         questions or need additional information, please contact James L. Ballard, director,
                                                                         Network Processing and Transportation, or me at 703-248-2100.

                                                                         Attachment

                                                                         cc:	   Corporate Audit and Response Management
Appendices




                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                            Print               2
Highlights
                    Table of Contents

                                                                         Cover
                                                                         Highlights.......................................................................................................1
                                                                          Background.................................................................................................1
                                                                          What The OIG Found..................................................................................1
Table of Contents




                                                                          What The OIG Recommended...................................................................1
                                                                         Transmittal Letter...........................................................................................2
                                                                         Findings.........................................................................................................4
                                                                          Introduction.................................................................................................4
                                                                          Conclusion..................................................................................................5
                                                                          Highway Contract Route Voyager Contract Pooling Practices...................5
                                                                         Recommendations........................................................................................7
                                                                          Management’s Comments..........................................................................7
                                                                          Evaluation of Management’s Comments....................................................7
Findings




                                                                         Appendices....................................................................................................8
                                                                          Appendix A: Additional Information.............................................................9
                                                                            Background .............................................................................................9
                                                                            Objective, Scope, and Methodology.........................................................9
                                                                            Prior Audit Coverage..............................................................................10
                                                                          Appendix B: Management’s Comments.................................................... 11
Recommendations




                                                                         Contact Information.....................................................................................13
Appendices




                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                                   Print                      3
Highlights
                    Findings                                             Introduction
                                                                         This management advisory report presents the results of our review of the Voyager Card Program for Highway Contract Routes
                                                                         (HCR) – Pooling Policy Concerns and Related Overpayments (Project Number 14XG024NO001). Our objective was to assess the
                                                                         U.S. Postal Service’s fuel pooling policy and practices. This pooling policy issue came to our attention during our ongoing review,
                                                                         Voyager Card Program - Capping Report (Project Number 14XG024NO000). See Appendix A for additional information about
                                                                         this review.
                     The Postal Service intentionally
                                                                         Since 2005, the Postal Service has been providing HCR suppliers with Voyager fleet transaction cards from U.S. Bank Voyager
Table of Contents




                      allowed all HCR suppliers with                     Fleet Systems, Inc. to purchase fuel (known as the HCR Voyager Card Program). In fuel year 2012–2013, the Postal Service paid
                                                                         over $665 million for fuel transactions covering the purchase of close to 170 million gallons under the program.
                      multiple HCRs to pool all their
                      authorized fuel gallons (called                    The Postal Service’s Fuel Management Program (FMP) document provides policy to suppliers and the Postal Service on the
                                                                         HCR Voyager Card Program. Under this policy, the Postal Service must perform timely, annual reconciliations1 of Voyager
                         aggregate pooling) without                      card transactions to determine whether suppliers exceeded their annual allotted fuel gallons. The FMP document also includes
                                                                         guidance on pooling authorized fuel gallons and requires HCR suppliers to submit written justification for pooling for review
                       regard to supplier operational                    and approval.
                          needs or cost benefits for
                                                                         Pooling allows an HCR supplier to combine, or “pool,” authorized gallons for contracts when there is an operational need to do
                                the Postal Service.                      so. This typically occurs in rare cases when a supplier uses the same equipment on multiple contracts in the same geographical
                                                                         location. During the annual reconciliation process, the Postal Service requires suppliers to reimburse it for all fuel used in excess
Findings




                                                                         of the contracted gallons by each individual contract route unless pooling was expressly approved for the benefit of the
                                                                         Postal Service.2

                                                                         The Postal Service has made annual changes to the pooling policy since the HCR Voyager Card Program began. Policy revisions
                                                                         allowed the practice of aggregate pooling, where authorized fuel for all HCR contracts for a particular supplier are combined,
                                                                         allowing a supplier to exceed the fuel allotted for a particular HCR contract as long as that supplier does not exceed the allotment
                                                                         for all of its contracts combined. The Postal Service allowed widespread aggregate pooling instead of enforcing the requirements
Recommendations




                                                                         and intent of the original policy. Additionally, the Postal Service reviewed the policy and practices for the previous 43 fuel years and
                                                                         determined it should not retroactively enforce the pooling policy despite the risk of possible loss in unidentified excess gallons and
                                                                         related overpayments.

                                                                         In our March 22, 2013, review, High-Risk Voyager Policy and Procedure Changes for Highway Contract Routes
                                                                         (Report Number NO-MA-13-003),4 we reported on proposed changes to the pooling policy and concluded that aggregate pooling
                                                                         increases the risk of fraud, waste, abuse, and non-recovery of overpayments.
Appendices




                                                                         1	 Reconciliation is the process whereby the actual gallons purchased with the HCR Voyager card are compared with the contractually allowed gallons to determine “excess
                                                                            gallons” by HCR. Untimely or inaccurate reconciliations may result in the Postal Service being unable to fully recover overpayments.
                                                                         2	 Before a 2012 policy change, pooling was only allowed in instances where fuel purchased on one contract might be used on another contract based on maintenance
                                                                            operations, line-of-travel, or method of operation.
                                                                         3	 Prior 4 years references the present fuel year (July 1, 2014–June 30, 2015).
                                                                         4	 The review specifically addressed the 2012 pooling policy changes and their negative impacts on the HCR Voyager Card Program. The assessment did not include the
                                                                            overall review of the HCR Voyager Card Program.
                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                                                              Print                                                 4
Highlights                                                               Conclusion
                                                                         The Postal Service has not effectively implemented and managed fuel pooling for HCR suppliers under the HCR Voyager Card
                                                                         Program. It intentionally allowed all HCR suppliers with multiple HCRs to pool their authorized fuel gallons (called aggregate
                                                                         pooling) without regard to supplier operational needs (such as the use of the same equipment on multiple routes) or cost benefits
                                                                         for the Postal Service. This widespread pooling occurred because the policy was inadequate as a result of diluted requirements,
                                                                         and required pooling agreements were either missing or lacked consistency. Consequently, the Postal Service may be paying
                                                                         more in fuel costs than necessary. We estimate the risk of unrecoverable fuel overpayments at $42.5 million annually. Without
                                                                         corrective actions, financial assets of about $42.5 million are also at risk for the July 1, 2014–June 30, 2015, fuel year.
Table of Contents




                                                                         Highway Contract Route Voyager Contract Pooling Practices
                                                                         In fuel year July 1, 2012–June 30, 2013, the Postal Service allowed all 4075 HCR suppliers with multiple HCR contracts to pool
                                                                         about 168 million authorized fuel gallons, representing about 89 percent of total authorized HCR Voyager fuel gallons. Because
                                                                         of aggregate pooling, the Postal Service failed to identify and collect about 11 million gallons of excess fuel.

                                                                         The Postal Service did not identify these excess gallons because the policy setting requirements for pooling has been gradually
                                                                         relaxed and is now inadequate. In addition, prior to the July 1, 2013–June 30, 2014, fuel year, required pooling agreements
                                                                         between the Postal Service and suppliers were either missing or lacked consistency.

                                                                         The Postal Service has loosened pooling requirements over several years in its FMP. In 2007, when establishing the pooling
                                                                         policy, the Postal Service allowed pooling only in limited cases. Pooling was allowed when the same vehicles were used
                                                                         on multiple routes or in the same geographical location. On rare occasions, management made allowances when personal
Findings




                                                                         identification number (PIN) management6 was not effective or adequate to allocate fuel to the proper contracts.

                                                                         In 2013, the Postal Service changed its requirements to allow suppliers to pool in some instances, depending on maintenance
                                                                         operations, line of travel, or method of operations. However, the policy does not set specific requirements to clearly demonstrate
                                                                         the operational need for pooling. The more flexible policy allows HCR suppliers to broadly interpret guidelines and inevitably
                                                                         promotes ignoring the intention of the program. It also leads to the continued practice of “pool-all”— which is effectively aggregate7
                                                                         pooling — and allows suppliers to avoid managing fuel by route, as required by the original policy.
Recommendations




                                                                         In addition, the U.S. Postal Service Office of Inspector General (OIG) previously reported that pooling agreements were missing
                                                                         and lacked consistency (Management of the Highway Contract Route Voyager Card Program, Report Number, NL-AR-11-003
                                                                         dated June 7, 2011). These shortcomings led the Postal Service to allow aggregate pooling. While the Postal Service made efforts
                                                                         in the July 1, 2013–June 30, 2014, fuel year to document pooling agreements, the agreements still do not clearly demonstrate an
                                                                         operational need for or benefit to the Postal Service from pooling.

                                                                         The OIG previously reported that aggregate pooling, or a “pool-all” practice, could:

                                                                         ■■ Lead to potential non-collection of all fuel overages. Aggregate pooling prevents identification of all possible recoverable
                                                                            overpayments for excess fuel and can result in non-recovery of those unidentified fuel overcharges.
Appendices




                                                                         5	 This value may be slightly overstated due to recent mergers and acquisitions decreasing the number of unique suppliers.
                                                                         6	 Effective PIN management is necessary and expected to ensure proper allocation and tracking of fuel gallons purchased to the correct contracted routes. The misuse
                                                                            of PINs obscures contract-by-contract fuel performance information.
                                                                         7	 Aggregate pooling is when the Postal Service allows a contractor with multiple HCRs, each with individual fuel usage requirements, to be treated as one large contract
                                                                            regardless of operational requirements, geographical location of contracts or use of the same vehicle on multiple routes. The Postal Service creates one national or
                                                                            “aggregated” fuel pool for each contractor when evaluating authorized fuel gallons against purchased gallons.
                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                                                                 Print                                               5
Highlights                                                               ■■ Hinder the ability of the Postal Service to determine actual fuel use by contract. Broad-based aggregate pooling significantly
                                                                            diminishes the ability to make fuel adjustments for contracts based on actual use.

                                                                         ■■ Provide an unfair competitive advantage to contractors with multiple Postal Service contracts when bidding on new available
                                                                            routes. They are able to submit lower bids on some routes and make up any losses using excess fuel gallons from
                                                                            existing contracts.

                                                                         Since we issued the High-Risk Voyager Policy and Procedure Changes for Highway Contract Routes alert, the Postal Service
                                                                         has not taken effective action to clarify and correct these pooling concerns. Revisions to the FMP pooling policy have focused on
Table of Contents




                                                                         adjusting policy language to be compatible with the practice of aggregate pooling, rather than changing it to be compliant with the
                                                                         original requirements and intent of the policy.

                                                                         Consequently, the Postal Service may be paying more in fuel costs than necessary. We believe the Postal Service’s liberal
                                                                         pooling practices have resulted in unrecoverable fuel overpayments of $42.5 million annually for the fuel periods 2012–2013 and
                                                                         2013–2014. Further, the Postal Service could avoid placing about $42.5 million of assets at risk in the subsequent fuel year8 by
                                                                         developing and enforcing clear pooling requirements.

                                                                                                               Voyager Card 2012 – 2013

                                                                                                                         The Postal Service has
                                                                                                                   allowed HCR suppliers to engage
Findings




                                                                                                                      in an ineffectively-managed
                                                                                                                          system of aggregate
                                                                                                                              fuel pooling…




                                                                                                                                                        As a result,
Recommendations




                                                                                                                                                the Postal Service realizes
                                                                                                                                            unrecovered fuel overpayments of

                                                                                                                                            $42.5        million
                                                                                                                                                      annually
Appendices




                                                                         8	 The subsequent fuel year would be 2014-2015.
                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                                          Print                                6
Highlights
                    Recommendations                                      We recommend the vice president, Supply Management:

                                                                         1.	 Ensure pooling agreements clearly demonstrate an operational need, that pooling is consistently applied, and that aggregate
                                                                             pooling is not allowed.

                                                                         2.	 Ensure that all overpayments to suppliers for excess fuel gallons not attributed to proper pooling are identified and collected
                                                                             timely to safeguard Postal Service financial assets for the July 1, 2014–June 30, 2015, fuel year and any subsequent periods.
                       We recommend management
                                                                         Management’s Comments
Table of Contents




                         ensure pooling agreements
                                                                         Management agreed with the findings and recommendations, but disagreed with some of the monetary impact calculations. Below
                             clearly demonstrate an                      is a summary of management’s responses to our recommendations.
                              operational need, are
                                                                         Management agreed with recommendation 1 and has ensured that they based recently completed, new pooling agreements on
                           consistently applied and                      operational need for the 2013-2014 fuel year. Management stated that the Postal Service implemented the recommendation on
                                                                         November 30, 2013.
                        that aggregate pooling is not
                                                                         Management agreed with recommendation 2 and stated they will complete reconciliations and collect any overpayments for
                       allowed. We also recommend                        excess gallons in a timely manner. Management plans to implement the recommendation by August 31, 2015.
                         management ensure timely
                                                                         Regarding monetary impact, management disagreed with the questioned costs of $42.5 million for year two and $42.5 million in
                         identification and recovery
Findings




                                                                         assets at risk for the current period. They stated they were not valid exposures because of the corrective actions and enhanced
                                                                         controls addressed in their response.
                                 of overpayments.
                                                                         See Appendix B for management’s comments in their entirety.

                                                                         Evaluation of Management’s Comments
                                                                         The OIG considers management’s comments responsive to the recommendations and corrective actions should resolve the issues
Recommendations




                                                                         identified in the report.

                                                                         Regarding management’s comments on our monetary impact and assets at risk, our approach and methodology are sound for
                                                                         both categories. Given the risks identified throughout this report and prior work, we continue to have concerns that the Postal
                                                                         Service may be challenged in collecting all overpayments because of past practices. Further, regarding implementation of
                                                                         recommendation 1 covering pooling agreements, the OIG will review management’s implementation and pooling documentation in
                                                                         closing out this significant recommendation.

                                                                         The OIG considers all recommendations significant, and therefore requires OIG concurrence before closure. Consequently, the
                                                                         OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                                         Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Appendices




                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                                    Print                                      7
Highlights
                    Appendices

                                                                         Appendix A: Additional Information.............................................................9
                                                                          Background .............................................................................................9
                                                                          Objective, Scope, and Methodology.........................................................9
                          Click on the appendix title
                                                                          Prior Audit Coverage..............................................................................10
Table of Contents




                          to the right to navigate to                    Appendix B: Management’s Comments....................................................12
                               the section content.
Findings
Recommendations
Appendices




                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                            Print                     8
Highlights          Appendix A:                                          Background
                    Additional Information                               The Postal Service negotiates HCR contracts about every 4 years. As part of the process, the Postal Service negotiates fuel
                                                                         separately and establishes annual authorized gallons for each HCR. Since 2005, the Postal Service has been providing HCR
                                                                         suppliers with Voyager fleet transaction cards from U.S. Bank Voyager Fleet Systems, Inc. to purchase fuel (known as the HCR
                                                                         Voyager Card Program). In fuel year 2012–2013, the Postal Service paid over $665 million for fuel transactions covering the
                                                                         purchase of close to 170 million gallons under the HCR Voyager Card Program.

                                                                         The Postal Service’s FMP document provides policy to suppliers and the Postal Service on the HCR Voyager Card Program.
                                                                         Under this policy, the Postal Service must perform timely, annual reconciliations9 of Voyager card transactions to determine
Table of Contents




                                                                         whether HCR supplier purchases exceed their annual allotted fuel gallons. The FMP document also includes guidance on
                                                                         pooling authorized fuel gallons and requires suppliers to submit written justification for pooling. Pooling allows an HCR supplier to
                                                                         combine, or “pool,” authorized gallons for contracts when there is an operational need to do so. This need generally occurs when
                                                                         suppliers use the same equipment on multiple contracts in the same geographical location.

                                                                         During the annual reconciliation process, the Postal Service requires reimbursement of fuel used in excess of the contracted
                                                                         gallons for each individual contract route unless pooling was expressly approved for the benefit of the Postal Service.10 In practice,
                                                                         pooling also allows a contractor to offset overages of fuel in one particular contract with underused fuel on another contract route,
                                                                         allowing the contractor to avoid reimbursing the Postal Service for any fuel usage above an individual contract limit.

                                                                         The OIG has continuously reported concerns with the control weaknesses and FMP policy changes, including pooling, since the
                                                                         2008–2009 fuel year reconciliation (see Prior Audit Coverage). As part of our work, the OIG has identified over $118 million in
Findings




                                                                         impacts relating to excess fuel gallons. Further, there have been a number of fraud investigations stemming from the ineffective
                                                                         controls and oversight of the HCR Voyager Card Program.

                                                                         Objective, Scope, and Methodology
                                                                         Our objective was to assess the Postal Service’s HCR supplier fuel pooling policy and practices. We also assessed the associated
                                                                         excess fuel gallons and related overpayments. To meet our objective, we discussed the FMP and HCR Voyager reconciliation with
                                                                         Postal Service management on April 2, 2014, and subsequently reviewed a legal opinion from the Postal Service General Counsel
Recommendations




                                                                         dated March 28, 2014. We reviewed the draft 2014 FMP and provided comments on May 1, 2014. We calculated the maximum
                                                                         possible exposure by reviewing HCR Voyager data, including reconciliation worksheets.

                                                                         We conducted this review from May through September 2014, in accordance with the Council of the Inspectors General on
                                                                         Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and conclusions with
                                                                         management on September 3, 2014, and included their comments where appropriate.

                                                                         We assessed the reliability of the data from the Postal Service’s 2012–2013 reconciliation file and supplemented that with
                                                                         transaction data from the Fuel Asset Management System (FAMS). The Postal Service’s reconciliation file is from back-end
                                                                         queries of FAMS. The OIG performed high-level data quality checks by comparing Postal Service workbooks to data from the
                                                                         Enterprise Data Warehouse system for the 2012–2013 fuel year and other Postal Service reports. Column totals indicated the
                                                                         data was sufficient for our purposes of calculating the exposure and the observations regarding irregular PIN management. We
Appendices




                                                                         determined that the data were sufficiently reliable for the purposes of this advisory.

                                                                         9	 Reconciliation is the process whereby the actual gallons purchased with the HCR Voyager card are compared with the contractually allowed gallons to determine
                                                                            “excess gallons” by HCR. Untimely or inaccurate reconciliations may result in the Postal Service being unable to fully recover overpayments.
                                                                         10	Before the 2012 policy change, pooling was only allowed in those instances where fuel purchased on one contract might be used on another contract based on
                                                                            maintenance operations, line of travel, or method of operation.
                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                                                             Print                                          9
Highlights                                                               Prior Audit Coverage
                                                                                                                                                                                 Monetary Impact
                                                                         Report Title                            Report Number                  Final Report Date                  (in millions)
                                                                         Highway Contract Routes –
                                                                                                                   NO-AR-14-008                        5/27/2014                           $287
                                                                         Miles per Gallon Assessment
                                                                         Report Results: Our report determined the Postal Service incurred unnecessary fuel costs of about $48.3 million annually
                                                                         for FYs 2012 and 2013 and could avoid costs of about $48.3 million annually if it contracts for future fuel gallons based on, at
                                                                         least, industry miles per gallon (MPG) averages. Further, if the Postal Service uses industry advanced fuel-efficient practices,
                                                                         it can reduce its carbon footprint, conserve non-renewable energy resources, and save an additional $46.7 million in fuel costs
Table of Contents




                                                                         annually. We recommended developing procedures to ensure industry MPG averages and more specific vehicle classifications
                                                                         are used to determine allotted HCR fuel gallons and coordinate with the chief sustainability officer and suppliers to develop a
                                                                         comprehensive strategy for using advanced fuel-efficient technology in vehicles and equipment. Management agreed with the
                                                                         findings and recommendations, but disagreed with the monetary impact calculations.
                                                                         Voyager Card Program for
                                                                         Highway Contract Routes –
                                                                                                                   NO-MA-14-001                       10/30/2013                            $9.9
                                                                         Unidentified and Unrecovered
                                                                         Fuel Overpayments
                                                                         Report Results: Our report estimated that about $9.9 million in fuel overpayments to HCR suppliers were not properly identified
                                                                         and recovered by the Postal Service for fuel year 2009–2010. Failure to collect these overpayments occurred because the
                                                                         HCR Voyager Card Program reconciliation process was not reasonably conducted and documented. We recommended the
                                                                         Postal Service immediately re-conduct the 2009–2010 fuel year HCR Voyager card reconciliation in accordance with the
                                                                         pooling and reconciliation requirements of the FMP and the current reconciliation methodology. Further, we recommended
Findings




                                                                         validating and documenting the results of 2009–2010 fuel overpayment determinations and collecting these overpayments.
                                                                         Management agreed to evaluate the 2009–2010 fuel year reconciliations for any anomalies and disagreed with the monetary
                                                                         impacts. Managers also stated they would initiate the recovery of funds resulting from evaluation of the 2009–2010 fuel year
                                                                         reconciliations.
                                                                         High-Risk Voyager Policy
                                                                         and Procedure Changes for                   NO-MA-13-003                     3/22/2013                          None
                                                                         Highway Contract Routes
Recommendations




                                                                         Report Results: Our report identified recent and proposed policy changes that could increase the risk of fraud, waste, and
                                                                         abuse. We recommended the Postal Service reverse the changes made or provide justification for pooling across all contracts.
                                                                         Further, the report recommended restating previous language in the FMP document restricting the use of fuel for non-postal
                                                                         purposes and continuing to notifying the OIG of suspicious or fraudulent circumstances involving HCR suppliers. Management
                                                                         agreed to revert to the 2011 FMP language and reinstate the restriction on fuel use for non-postal purposes, including the
                                                                         notification of suspicious or fraudulent circumstances involving HCR suppliers.
                                                                         Management of the Highway
                                                                         Contract Route Voyager Card                 NL-AR-11-003                      6/7/2011                          $108
                                                                         Program
                                                                         Report Results: The Postal Service did not always ensure that HCR suppliers purchased only authorized grades of fuel or
                                                                         remained within the contract limitations on the number of fuel gallons purchased. We recommended that fuel purchases be
                                                                         more closely monitored, apply pooling, in accordance with established requirements, and perform all outstanding reconciliations.
Appendices




                                                                         Management generally agreed with our findings and recommendations. However, these recommendations were closed as of
                                                                         March 2013 with caveats that we will be revisiting these issues during current and future HCR Voyager Card Program audit work.



                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                                  Print                                 10
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                         Print   11
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                         Print   12
Highlights
Table of Contents
Findings




                                                                            Contact us via our Hotline and FOIA forms, follow us on social
                                                                         networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                                or abuse. Stay informed.
Recommendations




                                                                                               1735 North Lynn Street
                                                                                              Arlington, VA 22209-2020
                                                                                                    (703) 248-2100
Appendices




                    Voyager Card Program for Highway Contract Routes –
                    Pooling Policy Concerns and Related Overpayments
                    Report Number NO-MA-14-006
                                                                                                                                                  Print   13
